<html>
<title> - COMPREHENSIVE WATERSHED MANAGEMENT AND PLANNING</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
            COMPREHENSIVE WATERSHED MANAGEMENT AND PLANNING

=======================================================================

                               (110-146)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 24, 2008

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure

                  U.S. GOVERNMENT PRINTING OFFICE
43-277                    WASHINGTON : 2008
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               FRANK A. LoBIONDO, New Jersey
EDDIE BERNICE JOHNSON, Texas         JERRY MORAN, Kansas
GENE TAYLOR, Mississippi             GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
NICK LAMPSON, Texas                  DAVID G. REICHERT, Washington
ZACHARY T. SPACE, Ohio               CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              JOHN R. `RANDY' KUHL, Jr., New 
BRUCE L. BRALEY, Iowa                York
JASON ALTMIRE, Pennsylvania          LYNN A WESTMORELAND, Georgia
TIMOTHY J. WALZ, Minnesota           CHARLES W. BOUSTANY, Jr., 
HEATH SHULER, North Carolina         Louisiana
MICHAEL A. ARCURI, New York          JEAN SCHMIDT, Ohio
HARRY E. MITCHELL, Arizona           CANDICE S. MILLER, Michigan
CHRISTOPHER P. CARNEY, Pennsylvania  THELMA D. DRAKE, Virginia
JOHN J. HALL, New York               MARY FALLIN, Oklahoma
STEVE KAGEN, Wisconsin               VERN BUCHANAN, Florida
STEVE COHEN, Tennessee               ROBERT E. LATTA, Ohio
JERRY McNERNEY, California
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
VACANCY

                                  (ii)

  
?

            Subcommittee on Water Resources and Environment

                EDDIE BERNICE JOHNSON, Texas, Chairwoman

GENE TAYLOR, Mississippi             JOHN BOOZMAN, Arkansas
BRIAN BAIRD, Washington              JOHN J. DUNCAN, Jr., Tennessee
JERRY F. COSTELLO, Illinois          WAYNE T. GILCHREST, Maryland
TIMOTHY H. BISHOP, New York          VERNON J. EHLERS, Michigan
BRIAN HIGGINS, New York              FRANK A. LoBIONDO, New Jersey
RUSS CARNAHAN, Missouri              GARY G. MILLER, California
JOHN T. SALAZAR, Colorado            ROBIN HAYES, North Carolina
MAZIE K. HIRONO, Hawaii              HENRY E. BROWN, Jr., South 
HEATH SHULER, North Carolina         Carolina
HARRY E. MITCHELL, Arizaon           TODD RUSSELL PLATTS, Pennsylvania
JOHN J. HALL, New York               BILL SHUSTER, Pennsylvania
STEVE KAGEN, Wisconsin               CONNIE MACK, Florida
JERRY MCNERNEY, California, Vice     JOHN R. `RANDY' KUHL, Jr., New 
Chair                                York
ELEANOR HOLMES NORTON, District of   CHARLES W. BOUSTANY, Jr., 
Columbia                             Louisiana
BOB FILNER, California               JEAN SCHMIDT, Ohio
ELLEN O. TAUSCHER, California        CANDICE S. MILLER, Michigan
MICHAEL E. CAPUANO, Massachusetts    THELMA D. DRAKE, Virginia
GRACE F. NAPOLITANO, California      ROBERT E. LATTA, Ohio
MICHAEL A. ARCURI, New York          JOHN L. MICA, Florida
VACANCY                                (Ex Officio)
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Collier, Carol, Executive Director, Delaware River Basin 
  Commission, West Trenton, New Jersey...........................     5
Freedman, Paul L., Vice President, Water Environment Federation, 
  Ann Arbor, Michigan............................................     5
Galloway, Gerald E., Glenn L. Martin Institute Professor of 
  Engineering, University of Maryland, College Park, Maryland....     5
Larson, Larry, Executive Director, Association of State 
  Floodplain Managers, Madison, Wisconsin........................     5
Mullican, III, William F., Deputy Executive Administrator for 
  Planning, Texas Water Development Board, Austin, Texas.........     5
Richter, Brian, Director, Global Freshwater Initiative, The 
  Nature Conservancy, Arlington, Virginia........................     5
Stockton, Steven L., Director of Civil Works, U.S. Army Corps of 
  Engineers......................................................     5

          PREPARED STATEMENT SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    31
Costello, Hon. Jerry F., of Illinois.............................    32
Mitchell, Hon. Harry E., of Arizona..............................    34

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Collier, Carol R.................................................    35
Freedman, Paul L.................................................    44
Galloway, Gerald E...............................................    59
Larson, Larry A..................................................    66
Mullican, III, William F.........................................    76
Richter, Brian...................................................    83
Stockton, Steven L...............................................    95

                       SUBMISSIONS FOR THE RECORD

Richter, Brian, Director, Global Freshwater Initiative, The 
  Nature Conservancy, Arlington, Virginia, responses to questions 
  from the Subcommittee..........................................    91

                        ADDITIONS TO THE RECORD

Susquehanna River Basin Commission, Paul O. Swartz, Executive 
  Director, written statement....................................   100
Water Resources Coalition, written statement.....................   110

[GRAPHIC] [TIFF OMITTED] T3277.001

[GRAPHIC] [TIFF OMITTED] T3277.002

[GRAPHIC] [TIFF OMITTED] T3277.003

[GRAPHIC] [TIFF OMITTED] T3277.004

[GRAPHIC] [TIFF OMITTED] T3277.005



            COMPREHENSIVE WATERSHED MANAGEMENT AND PLANNING

                              ----------                              


                         Tuesday, June 24, 2008

                  House of Representatives,
    Committee on Transportation and Infrastructure,
           Subcommittee on Water Resources and Environment,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:10 p.m., in 
Room 2167, Rayburn House Office Building, Hon. Eddie Bernice 
Johnson [Chairwoman of the Subcommittee] presiding.
    Ms. Johnson. The Committee will come to order.
    I need to announce that I am going to have to leave early 
to go to a classified briefing. And Mr. Carnahan will be taking 
the chair as I depart.
    The United States is a country of very diverse water 
resource needs. Watershed planning and management provides a 
means for Federal and local governments to identify water 
resources conflicts and find potential solutions. In fact, 
comprehensive watershed management and planning has been raised 
in several contexts before this Committee over the past year.
    At present, several regions of the country face significant 
water resource challenges, ranging from droughts in the 
Southeast and Southwest to the recent flooding in the Midwest. 
Watershed planning and management can be an important tool to 
help make better decisions in resolving these water resource 
needs.
    Last year, during a hearing on H.R. 135, the Committee 
received testimony from experts that highlighted the need for a 
comprehensive watershed approach to water resource planning, 
one that is not limited just to water supply needs but takes a 
comprehensive view of all the water resources activities in a 
watershed, including local, State and Federal roles and 
activities in water supply, flood control and environmental 
restoration.
    The experts also advise taking into account the impacts of 
global climate change on water resource capacity and future 
needs.
    WRDA passed last year for the first time in 7 years and 
included provisions to reinvigorate broader watershed planning 
authority, including a federally funded assessment of water 
resource needs for the river basins and watersheds of the 
southeastern United States and a region-wide study to review 
drought conditions in the southwestern United States.
    These region-wide assessments are essentially critical to 
southeastern U.S., including the States of Georgia, Alabama and 
Florida, which are experiencing the ever-increasing challenge 
of balancing water needs during a record drought.
    My home State of Texas has had long experience in water 
resource planning. Following the drought of the 1950s--I am not 
old enough to remember that--Texas began its initial efforts in 
State-wide planning. In 1957, the Texas legislature created the 
Texas Water Development Board. The board has prepared and 
adopted eight water plans. Early efforts focused mostly on 
describing the State's water resources and then evolved into a 
focus on developing plans addressing water supply, conservation 
and environmental issues.
    We do have a representative here today. I am very proud of 
my State for the planning.
    The drought of 1997 was a watershed event for Texas. This 
devastating drought caused nearly $5 billion in losses for 
agriculture and related industries and caused widespread loss 
and anxiety over water supply shortages. As a result of this 
statewide event, Texas totally changed its approach to water 
planning and moved from a very centralized approach to a 
decentralized process that put primary responsibility for water 
planning at the regional and local government levels. The new 
process greatly increased public participation and implemented 
a bottom-up local and regional planning process. This new 
effort emphasized conservation and increases in environmental 
protection.
    Texas recently released its 2007 water plan, which is one 
of the most comprehensive State water plans produced. I am very 
pleased that we have Mr. William Mullican, deputy executive 
administrator for planning of the Texas Water Development 
Board, here today to tell us more about the implementation of 
this latest plan.
    I also look forward to hearing suggestions on how to better 
develop watershed planning activities from our panel of experts 
today.
    I now yield to our Ranking Member, Mr. Boozman of Arkansas.
    Mr. Boozman. Thank you very much, Madam Chairman.
    Water resources development planning in the Nation 
typically has been narrowly focused, usually addressing a 
single purpose and within a single community. It is not 
surprising that project planning has developed in this way. 
When one learns the purposes of a project and geographic scope, 
solutions become easier to identify.
    Also, when it is one community that is sharing in the cost 
of a water resources development feasibility study, it is 
reasonable to expect that the focus will be on the concerns of 
that community.
    Impacts on other water uses in the watershed are not 
necessarily ignored, but they are secondary to the stated 
purpose of the ongoing study, be it flood control, 
environmental restoration, water supply or some other use.
    Competition for water is increasing throughout the country. 
More and more often, we are seeing where growing cities' need 
for municipal and industrial water supplies are at odds with 
similar needs for that same water downstream. This conflicts 
with environmental, recreation, navigation or flood control 
needs elsewhere in the watershed.
    What has been missing in most cases is a comprehensive 
watershed plan against which more focused, local feasibility 
plans can be measured. Such a comprehensive plan would identify 
the water supply and demand in the watershed for all its 
purposes and include models that would allow planners to see 
how certain decisions in one area would impact water uses 
elsewhere. Such an approach would allow local planners to face 
the inevitable tradeoffs that occur when multiple users with 
different interests compete for a limited resource.
    Facing these issues will be difficult, but they must be 
done at the State and local level. It is important that we face 
the fact there is a limited amount of usable water in any 
watershed. At the State and local levels, water must be 
conserved, and a plan must be developed on how this limited 
resource is going to be shared. If we do not do this, we can 
expect to see many more water conflicts developing around the 
country.
    Citizens in Georgia, Alabama and Florida are currently 
struggling to find a way to share the water in a watershed that 
is oversubscribed for water use, at least in drought 
conditions. This has proved to be a very challenging task for 
which there are no easy solutions. We must encourage, 
throughout the Nation, a pattern of comprehensive watershed 
management that will reduce these kinds of conflicts in the 
future.
    A broad watershed management plan could be a standard upon 
which traditional feasibility studies for individual projects 
are measured. Congress could even consider making studies and 
projects that are consistent with the watershed management plan 
a priority for appropriations and authorizations.
    Exactly how we can make watershed management planning 
happen is a challenge. What are the appropriate State and 
Federal roles of such planning? Who should bear the cost? I 
tend to believe that a State-driven planning effort with heavy 
local involvement will lead to the best plans with the most 
acceptance. Certainly, the Federal Government can help with 
technical assistance and some minimal standards.
    Fortunately, we have some expert witnesses today who have 
been looking at this issue for a very long time and who have 
some experience with it. I look forward to hearing their 
insights as to how we can move forward with comprehensive 
watershed management planning.
    And I yield back, Madam Chairman.
    Ms. Johnson. Thank you, Mr. Boozman.
    The Chair now recognizes Mr. Bishop.
    Mr. Bishop. Thank you, Madam Chairman. I want to thank you 
for holding this hearing on watershed management and planning.
    My district encompasses 300 miles of eastern Long Island's 
coastline and coastal watersheds that I am very proud to 
represent. Maintaining coastal health is an important objective 
not only in my district, but also as we seek to preserve our 
Nation's environment and to sustain the economies of our States 
that rely on safe, clean water.
    Specific to this hearing, I am interested in hearing the 
panelists' views about the sometimes conflicting 
responsibilities and jurisdictions between the Army Corps and 
other Federal and State agencies.
    In my district, the Fire Island to Montauk Point 
Reformulation Study will be concluding next year after decades 
of work and millions of Federal dollars being spent. As we near 
completion, the Army Corps of Engineers, the Department of 
Interior, through the National Park Service and the U.S. Fish 
and Wildlife Service, and the State of New York, have begun 
discussions about the implementations of the study's findings.
    These three entities have, to varying degrees, different 
responsibilities for the implementation of the project, and 
they also have somewhat differing perspectives on the goals of 
the FIMP project. While I am confident that the Army Corps, 
Department of Interior, and New York State will reach a 
consensus on how to best protect the residents of my district 
and protect the environment, I am interested in understanding 
how future projects can be authorized to prevent competing 
jurisdictions and responsibilities. Increased coordination will 
save taxpayer dollars and speed the completion of critical 
projects.
    I appreciate the participation of today's panelists, and I 
look forward to the discussion of these important issues.
    Thank you, Madam Chair. And I yield back.
    Ms. Johnson. Thank you very much, Mr. Bishop.
    Mrs. Drake?
    Mrs. Drake. Thank you, Madam Chair.
    First, I would like to thank the Chair for holding today's 
hearing.
    And I would also like to thank the panel members for 
joining us today, and I look forward to your testimony.
    The 2nd District of Virginia is home to the mouth of the 
Chesapeake Bay, which represents the beginning of a 64,000-
square-mile watershed. However, most of us live in a watershed, 
whether they are large like the Chesapeake or small like a 
local stream or river.
    There are incredibly diverse water conditions across our 
Nation, from coastlines and bays, such as in the 2nd District, 
to mountain, plains and desert environments to the west. In 
addition, there are varying levels of watershed management 
across the country, which are operated by various entities. 
These conditions can sometimes lead to regional conflicts over 
water resources, as well as a lack of understanding of the 
downstream impacts of developmental decisions.
    I look forward to today's hearing to learn more about the 
opportunities to explore a more comprehensive and collaborative 
approach to watershed management.
    Again, I thank you all for being here today, and I look 
forward to your testimony.
    Thank you, Madam Chair.
    Mr. Carnahan. [presiding.] I want to recognize the 
gentlewoman from Hawaii for an opening statement.
    Ms. Hirono. Thank you, Mr. Chairman.
    I just wanted to enter for the record the efforts of the 
partnerships in Hawaii that already pay attention to a very 
comprehensive method of watershed management and planning. That 
is because in Hawaii we have a term called "ahapuaa" where we 
think of our land and natural and water resources as running 
from the mountain to the ocean. And, therefore, a lot of our 
planning incorporates that perspective. And so we have nine 
partnerships that includes State, county, nonprofits, 
businesses and the Federal Government.
    And I would like to enter that for the Committee record.
    Thank you. I yield back.
    Mr. Carnahan. Thank you.
    I want to turn to our panel of witnesses today that 
consists of Steven Stockton, Director of Civil Works, U.S. Army 
Corps of Engineers; Carol Collier, executive director, Delaware 
River Basin Commission; Larry Larson, executive director, 
Association of State Floodplain Managers; Brian Richter, co-
director, Global Freshwater Team, The Nature Conservancy; 
Gerald Galloway, professor of engineering, University of 
Maryland; Paul Freedman, vice president, Water Environment 
Federation; William Mullican, deputy executive administrator 
for planning, Texas Water Planning Board.
    Your full statements will be placed in the record. We ask 
that you try to limit your testimony to about 5 minutes as a 
courtesy to the other witnesses.
    And we will proceed in the order the witnesses are listed 
in the call of the hearing.
    Mr. Stockton, please proceed.

TESTIMONY OF STEVEN L. STOCKTON, DIRECTOR OF CIVIL WORKS, U.S. 
  ARMY CORPS OF ENGINEERS; CAROL COLLIER, EXECUTIVE DIRECTOR, 
  DELAWARE RIVER BASIN COMMISSION, WEST TRENTON, NEW JERSEY; 
    LARRY LARSON, EXECUTIVE DIRECTOR, ASSOCIATION OF STATE 
    FLOODPLAIN MANAGERS, MADISON, WISCONSIN; BRIAN RICHTER, 
DIRECTOR, GLOBAL FRESHWATER INITIATIVE, THE NATURE CONSERVANCY, 
   ARLINGTON, VIRGINIA; GERALD E. GALLOWAY, GLENN L. MARTIN 
  INSTITUTE PROFESSOR OF ENGINEERING, UNIVERSITY OF MARYLAND, 
COLLEGE PARK, MARYLAND; PAUL L. FREEDMAN, VICE PRESIDENT, WATER 
    ENVIRONMENT FEDERATION, ANN ARBOR, MICHIGAN, WILLIAM F. 
  MULLICAN, III, DEPUTY EXECUTIVE ADMINISTRATOR FOR PLANNING, 
          TEXAS WATER DEVELOPMENT BOARD, AUSTIN, TEXAS

    Mr. Stockton. Thank you, Mr. Chairman, Members of the 
Subcommittee. I am Steven Stockton, Director of Civil Works 
with the U.S. Army Corps of Engineers. Thank you for the 
opportunity to testify today on the importance of comprehensive 
watershed management planning on the Corps's role in watershed 
planning.
    Water resources problems we face today are complex. Trends 
that impact water resources include: the impact of droughts, 
floods and hurricanes; the migration of people to coastal 
States; growing urban centers in arid and semi-arid regions, 
all with a need for reliable, sustainable water supply; urban 
development in river valleys and its impacts on floodplains; 
aging infrastructure; and water conflicts between States, which 
become most apparent when shared water resources diminish, such 
as under long-term drought conditions. These and other similar 
challenges require coordinated and collaborative approaches.
    Water resource planning and management requires an 
appreciation of the existing and potential future uses of the 
water resources and fitting all the pieces and interests into 
an integrated plan that addresses those very needs.
    We are technical experts in water resources management, 
water policy, regulatory permitting, and disaster response. 
However, these roles are changing as States and other resource 
agencies grow in their engineering and water resource 
capabilities, with many showing much greater interest in being 
directly involved and even leading the water resource 
management opportunities.
    Water management is not a sole responsibility of either the 
State or the Federal Government, but is rather a shared 
responsibility. Both the Federal Government and the States can 
benefit from this shared responsibility, and the Corps of 
Engineers is working to play a constructive role in these 
partnerships.
    Historically, the Corps's flood damage reduction and 
emergency response efforts have been watershed-based. Since the 
great Mississippi River flood of 1927, the Corps has been 
building and maintaining a large system of levees and related 
features to reduce flood damage in the lower Mississippi River 
Valley. This and our later effort to reduce flood damage along 
the Missouri River by building large mainstem dams were based 
on watershed planning.
    For a number of reasons, the civil works construction 
program has become more focused on specific, locally based 
projects in recent years. The era of large, multipurpose dams 
construction has come to a close in this country.
    The cost-sharing requirements of the Water Resources 
Development Act of 1986 may have also contributed to this 
trend. Our sponsors have limited budgets and are often 
interested in minimizing their costs to achieve a solution to a 
specific water resource problem. Watershed studies are more 
challenging to arrange because they involve multiple sponsors 
and require compatible interests and aligned budgets.
    Nevertheless, we have undertaken a number of watershed 
studies since the passage of the Water Resources Development 
Act of 1986. For example, the recent Illinois River Basin 
Restoration Study covered 30,000 square miles in Illinois, 
Indiana and Wisconsin. The large geographic scale, numerous 
stakeholders, close teamwork, innovation and commitment to 
collaboration earned its selection as the winner of the 2007 
Environmental Planning Excellence Award of the American 
Planning Association.
    Our efforts to manage water on a large geographic scale 
have also led to major Corps aquatic ecosystem restoration 
programs in the Everglades, in the coastal wetlands ecosystem 
of Louisiana, and in and along the upper Mississippi River and 
Illinois waterway.
    Nonetheless, the cumulative effect of small-scale decision-
making over the past two decades has become more apparent. Now 
there is a general recognition of the need for more holistic, 
comprehensive approaches to watershed management at all levels 
of government.
    In 2006, Congress directed the Secretary to initiate a 
series of pilot watershed studies to address collaboration and 
planning on a watershed scale at full Federal expense. Funds of 
$4.5 million were appropriated, and 38 proposals were 
considered by the Corps. Five studies from across the Nation 
were selected. We are pleased to report that these 2-year 
studies nearing completion have benefitted the Nation by 
bringing resource and stakeholder groups together to solve 
water resource problems, in many cases for the first time. The 
unfunded remaining 33 proposals provide an initial indication 
of the unmet demands for watershed-based analysis.
    The main observation from these studies is that 
collaboration is working, partnerships with the States and 
other resource agencies have helped to achieve better 
coordination. The Corps involvement provided tools and 
databases, collection and sharing of data, engineering, 
scientific and environmental expertise to assist watershed 
planning.
    How can the Corps assist States? Today we can provide 
planning and technical assistance through a number of programs, 
such as authority in Section 729, WRDA 1986, as amended, to 
support comprehensive watershed planning through a 75 percent 
Federal and 25 percent local cost-share contribution. We also 
have planning assistance to States programs.
    The Corps role in the water resources community is 
evolving. In some cases, we are the lead; in others, we are a 
contributor as a facilitator. This is due to the changing role 
of the States and local agencies. They are initiating more 
water resource planning efforts and projects on their own, and 
are approaching the Corps to assist on a technical level. 
Partnerships to leverage resources and technical expertise are 
clearly a requirement to effectively address future watershed 
studies.
    In summary, the need for a comprehensive water resource 
management and planning for future water resource needs is more 
important than it has been in the past. Collaborative 
involvement by the Federal community will be a requirement. As 
such, the Corps stands ready to work as a partner with State 
and local leaders by providing technical expertise, working 
with nongovernmental organizations and other State and Federal 
agencies, as well as providing science and data to advance 
locally led collaborative planning.
    Mr. Chairman, Members of the Subcommittee, thank you for 
this opportunity to testify. That concludes my remarks.
    Mr. Carnahan. Thank you.
    Ms. Collier, please proceed.
    Ms. Collier. Thank you, Mr. Carnahan and Members of the 
Subcommittee. I am Carol Collier, executive director of the 
Delaware River Basin Commission.
    The DRBC was formed in 1961 and is an interstate Federal 
compact, the mission of which is to manage water resources 
without regard to political boundaries. My bosses are five; 
they are Governors of the four basin States--New York, New 
Jersey, Pennsylvania and Delaware--and a general in the Corps 
of Engineers, commander of the North Atlantic Division, who is 
the appointee of the President. And when he votes, he votes for 
all Federal agencies.
    While it is a small basin, it serves 15 million people. New 
York City has three huge reservoirs in the very headwaters of 
the basin and can divert up to 800 million gallons a day out of 
the basin. It also provides water to Philadelphia and the down-
basin estuary area.
    This is my favorite topic, so I really appreciate this 
opportunity. In my short time, I would like to talk about some 
of the problems and my key recommendations, because integrated 
water resource management is critical.
    One, rivers do not respect political boundaries. To 
effectively manage rivers, you need to manage on a watershed 
approach and also, you know, connect that with our 
socioeconomic political boundaries.
    The river divides two States. It is really hard to manage 
flood waters just standing on one State and having control of 
one shore. So you need to look at it holistically.
    In our case, one of DRBC's jobs is to keep the saltwater 
out of Philadelphia intakes, having enough fresh water flowing 
down the river to push that saltwater back to the bay. The only 
way that works is having agreements with the upper-basin 
States--New York, New Jersey, Pennsylvania--to have a release 
program from the New York City reservoirs, State reservoirs, 
power reservoirs, so that during drought conditions, plans are 
already in place and we know what to do.
    A second concern is, our existing laws that govern water 
resources are fractured. It made sense when these were put into 
place, but now that we know more about the need for holistic 
watershed management and the problems that the fracturing can 
cause and missing opportunities, we need to put the pieces back 
together again.
    Thirdly, you have to have a plan. As Mr. Carroll said in 
"Alice in Wonderland," if you don't know where you are going, 
you will end up somewhere else. And it is really important, 
when you are looking at all the different aspects of watershed 
management, to have a plan, not one of the 5-inch types that 
you think of from back in the 1970s, but one that is done 
through an open process, results in priorities, that then we 
can work with partners, Federal agencies, States, nonprofits 
and private sector to really implement those priorities.
    Another direction that is needed is that no one agency can 
manage a river basin. It needs to be a collaborative process 
with all levels of government and key stakeholders. Through the 
planning process we can make the snowballs--and I do have with 
me a copy of our resource plan that we put together in 2004 and 
some summaries of that, if you would like that--but we need 
partners such as the Corps of Engineers, USGS, et cetera, to 
really get the actions done.
    My key recommendations: One, we need a mechanism to bring 
principal parties together to manage a river system. In an 
interstate river basin, I really think river basin commissions 
are the best mechanism. The commission itself is not above the 
States and Federal Government; it provides a forum for those 
principal parties to come together and act on a watershed 
basis.
    Management of natural resources is always changing. You 
can't draw a line on a rock and say, "That is what is going to 
be the allocation for the future." Science changes, technology 
changes, political regimes change, and you need to have a forum 
for adaptation. And that is what the basin commission provides. 
This is going to be even more important as we address the 
concerns of climate change and what that means to our water 
resources.
    Managing water resources is not easy. We don't sing 
"Kumbaya" every day. Everybody has different agendas. But it 
takes trust, flexibility and a little sacrifice to make it 
work.
    You also can't develop a plan in a crisis, and I think that 
is what we are seeing down in the Southeast region. You need to 
have a plan ahead of time and a river basin commission that not 
only has planning capability but implementation capability so 
you can put together a drought operating plan or whatever is 
necessary.
    We need Federal agencies to have more flexibility so they 
can really work with these watersheds, either at the State 
level or interstate level. We need to encourage funding of 
basin planning.
    And, finally, a river can be and often is a dividing line, 
creating a high wall between States, but it can be the rope 
that binds communities together.
    Effective integrated water resource management, using river 
basin commissions as the local manager and having Federal 
agencies on a team that really bring their individual 
expertise, can make our rivers the centers of strong 
communities and ensure that the water resources are used more 
cost-effectively and the system is environmentally sustainable.
    I will be glad to answer questions and work with you in the 
future to forward watershed management.
    Thank you.
    Mr. Carnahan. Thank you very much.
    Next let's turn to Larry Larson.
    Mr. Larson. Thank you, Mr. Chair. ASFPM is pleased to once 
again testify in front of this Committee, a Committee that, in 
our view, has demonstrated a concern for these complex, broad 
issues and also an in-depth understanding of these issues.
    Unfortunately, I have to start with a statement that I have 
made many times before, and that is, those of us in the Midwest 
are telling you that once again we are under devastating 
flooding. That is not news to many of you, of course, but the 
fact we are seeing these impacts shows many of the things that 
currently are not working in our plans for watershed 
management.
    On the TV set, I am seeing too many people say this is an 
event that was unexpected, we couldn't predict it, we didn't 
know it was going to happen. Well, that tells me that our 
programs aren't doing a very good job of helping people 
understand risk, helping people understand the impacts of 
conflicting watershed management approaches that are leading us 
toward some of these water quality, water quantity negative 
impacts, public safety issues, that really should be handled as 
part of good watershed management.
    We shouldn't be seeing things like water treatment plants 
that are flooded and not operational, critical facilities like 
hospitals and fire stations that aren't operable during flood 
events, social disruptions of our communities, businesses out 
of operation for long periods of time, drinking water 
contaminated and undrinkable, levee design levels that are 
inadequate for urban areas and lead to numerous catastrophic 
flooding failures and overtoppings, closures of roads, streets 
and bridges. All of those are issues that can be handled 
through and assisted through good watershed approaches.
    We have a number of issues now, but I can assure you that 
in the next 50 years, as we add 100 million to 150 million 
people to this Nation, those problems are going to multiply 
significantly.
    I have some detailed recommendations in our written 
testimony, but let me give you some what I view as pretty much 
outcomes of what we should work collaboratively together on to 
get off of this stovepipe problem.
    This comprehensive watershed management approach is 
absolutely essential, that we have all talked about. That is a 
challenge not only for agencies and programs, but it is a 
challenge for those of you here in Congress where 
jurisdictional issues for each of the Committees is still 
stovepiped, as it is in the programs.
    So some forum is probably going to be necessary beyond the 
formal hearing process, where maybe cross Committees work 
together, where we have national commissions that you can 
appoint and come back to you with broad-based recommendations.
    Secondly, room for our rivers and oceans. Our deep 
floodplains and our sensitive ecosystems are areas where we 
should not build--and those that are there, we need to start a 
gradual retreat from those high-risk and ecologically sensitive 
areas.
    We need to reverse some of the perverse incentives we 
currently have, reform those Federal programs that incentivize 
unwise development in our watersheds. And Federal agency 
programs that cause adverse impacts on other communities and 
other properties need to be adjusted so those things don't 
occur, both on a water quality and a water quantity basis. And 
we need to restore and enhance those natural systems on our 
rivers and coasts.
    The big issue is renaissance of government, of course, of 
how we govern water resources management. Both of the previous 
speakers have talked about that.
    Steve has mentioned that the Federal Government role is 
changing, more to that of a facilitator and technical 
assistance, less into the actual doing. The bottom-up approach 
is key and essential. It is a shared responsibility, and it is 
one that we need to collaborate on and work on.
    Most of the solutions to these issues lie in land use, 
comprehensive planning, community planning. Those are not 
functions of the Federal Government under our Constitution. 
They fall under the role of State and local governments. So we 
must build off of that to really come into our solutions.
    Then we have to promote personal and public responsibility. 
We do have programs that reward those who do things wrong. We 
need to modify that and change that, so we are rewarding those 
communities and people who act responsibly and do the right 
thing, who understand that shared responsibility and accept 
their cost and risk.
    One of the first simple things, for example, is the Corps 
of Engineers' programs for nonstructural could be cost-shared 
at a larger cost share, say, 75-25, as opposed to 65-25 for 
structural. And I think that is a win for the Federal 
Government, because, in the long term, the Federal Government 
would not be coming back in, having to build and repair 
structural measures like we see now--levees that are failed, 
rebuild the levees, or help for operation and maintenance. So, 
in the long term, those non-structural kinds of programs should 
be better cost-shared. That is just one point that I wanted to 
raise.
    With that, I will pass on the rest of it. Thank you.
    Mr. Carnahan. Thank you.
    Mr. Richter?
    Mr. Richter. Members of the Subcommittee, I want to thank 
you for this opportunity to testify on comprehensive watershed 
planning and management.
    My name is Brian Richter, and I am the director of The 
Nature Conservancy's Global Freshwater Team. The Nature 
Conservancy is a leading conservation organization that 
protects ecologically important places for both people and 
nature. Our on-the-ground conservation work is carried out in 
all 50 States and in more than 30 foreign countries.
    The comments that I am going to provide today are drawn 
from our experience of working on the ground with the Corps of 
Engineers and other water managers to restore and protect 
aquatic ecosystems.
    The idea of a watershed approach has been around for some 
time, but it is a term that remains poorly defined and not yet 
commonly applied. We believe that a watershed approach should 
be based on natural hydrologic processes that consider water 
and sediment movement along the river, hydrologic connections 
between headwaters and downstream areas, including estuaries, 
and the role of properly functioning floodplains, as some of 
the previous speakers have emphasized.
    This watershed process-based approach should fully 
incorporate the role of healthy and functioning ecosystems such 
as wetlands into the project planning and evaluation. By 
determining how a project or a management activity will affect 
the downstream systems, considering upstream management actions 
and land uses in the watershed, a watershed process-based 
approach can bring valuable insights to the planning and design 
of water resource projects.
    To employ such an approach, the current water resource 
planning process must be improved. Instead of planning 
individual projects in isolation, water resource planning 
efforts should be more frequently seeking to develop and 
utilize watershed-based tools that allow the Corps and other 
key stakeholders to make critical decisions about water 
resources management.
    One example of such a tool is a computer-based decision 
support system being developed by the Army Corps of Engineers 
and The Nature Conservancy in the Upper Delaware River 
Watershed. This innovative computer tool will model key 
physical and biological variables, existing infrastructure, and 
hydrologic conditions across the watershed. The information 
will allow State and Federal agencies, as well as key 
stakeholders, to evaluate the impact and viability of various 
strategies for reducing flood heights throughout the basin.
    Comprehensive watershed management should also include an 
approach to management of dams and reservoirs that seeks to 
optimize resource goals throughout watersheds.
    The benefits of comprehensive dam management are 
illustrated through our work on the Penobscot River in Maine, 
where we are working with a variety of partners to restore 
hundreds of miles of spawning habitat for endangered Atlantic 
salmon and numerous other fish species. Under an innovative 
agreement between the Penobscot River Restoration Trust and the 
PPL Corporation, three mainstem hydropower dams will be removed 
in a state-of-the-art fish-passage structure constructed around 
a fourth dam.
    To compensate for the lost energy production due to the 
removal of the three dams, hydropower production will be 
increased at other dams in the same watershed. Because the 
Penobscot project is built on a comprehensive multi-dam 
evaluation of both hydropower and ecosystem needs across the 
entire river basin, it will achieve one of the largest river 
and migratory fish restoration efforts in the eastern United 
States with little or no hydropower loss.
    The Conservancy is also working with the Corps to more 
comprehensively manage Corps reservoirs through our mutual 
Sustainable Rivers Project. This innovative partnership seeks 
to incorporate a broader array of watershed needs, such as 
downstream ecosystem health, into the operation of Corps dams.
    Our work to date has already demonstrated at several sites 
that modest adjustments to existing dam operations can 
accommodate a broader set of watershed needs without impacting 
the original purposes of the dam. In fact, on the Green River 
in Kentucky, our work with the Corps to restore the river's 
health by modifying dam operations actually improved the flood 
control performance of the dam and extended the recreation 
season on the reservoir.
    Comprehensively managing our water resources 
infrastructure, in combination with downstream floodplain 
management, is a key component of the work at the Sustainable 
Rivers Project sites, as well as in some of our international 
water management efforts.
    Presently, a tremendous volume of potential water storage 
space is left empty behind dams because of the spaces needed to 
be reserved to capture incoming floods and protect downstream 
structures and roads.
    But on the Yangtze River in China we have developed a 
proposal that is under serious consideration by the Chinese 
Government to restore the Yangtze Valley's natural floodplain 
and thereby reduce dependence on the dams as a sole means of 
flood management. By using floodplains for flood storage 
instead of dams, the hydropower production at these dams can be 
increased, expanding a sustainable energy source for this 
country.
    This example illustrates how a comprehensive approach for 
managing infrastructure, together with floodplains, can create 
opportunities for greater efficiency and provides the ability 
to meet multiple watershed goals, such as flood risk 
management, hydropower production and ecosystem restoration.
    Lastly, while the examples above illustrate the importance 
of improving our planning techniques and better managing our 
infrastructure in a watershed context, we must also examine how 
water resource projects are authorized and funded. A project-
by-project authorization and funding process makes 
comprehensive watershed management very, very challenging. 
Instead, we should be managing projects on a regional or 
watershed basis by investing in planning tools and approaches 
that evaluate watershed-wide processes and needs and in 
implementing projects consistent with the information and the 
learning that is generated. Regional or watershed-based 
authorizations, focused on projects that comprehensively meet 
watershed goals, would encourage such an approach.
    To conclude, the Conservancy believes that comprehensively 
managing our water resources across watersheds can have 
enormous benefits, ranging from efficient management of 
infrastructure to maximizing Federal investments to meet 
multiple needs.
    Thank you for holding this hearing today and providing us 
with the opportunity to present The Nature Conservancy's views 
and testimony on this topic. I would be happy to answer any 
questions you may have.
    Mr. Carnahan. Thank you.
    Now, Mr. Galloway with the University of Maryland.
    Mr. Galloway. Thank you, Mr. Chairman, Members of the 
Committee. It is a distinct privilege for me to participate in 
this important and timely hearing. I am Gerald Galloway. I am a 
professor of engineering at the University of Maryland, where I 
teach and do research in water resources.
    I come here today to speak to the need for watershed 
planning, as we continue the development, maintenance and 
restoration of our Nation's water resources. These resources 
cannot be sustainably, efficiently and safely developed if we 
continue to address problems on a project-by-project basis.
    Watershed planning and management have brought great 
rewards to this country. It is not new. In 1927, the Congress 
directed the Corps of Engineers to conduct comprehensive river 
basin studies across the United States. These "308" studies 
provided the basis for much of the work that took place in the 
1930s and 1940s, including the TVA and on the Columbia.
    TVA is a shining example, as each issue TVA faces, whether 
it was power production, navigation, flood control, malaria 
prevention, recreation or the environment, was studied in its 
broadest context and weighed in relation to the others. It was 
truly systems planning.
    Failing to see the need for watershed planning can have 
serious consequences. We now recognize that, for nearly 40 
years, the Nation invested heavily in hurricane protection for 
New Orleans through construction of levees and other structures 
without recognizing that the wetlands of coastal Louisiana's 
watershed were key elements of a natural structural system that 
provided storm buffering for New Orleans and protection for 
oil, gas, shipping and fishing industries that generate 
revenues for the State and the Nation and sustain critical 
ecosystems.
    If watershed planning makes sense, why is it not being 
accomplished? Well, the nature of the congressional 
authorization, appropriation and project-focused process 
supports the stovepipe approach you have heard several people 
mention and gives projects a priority over watershed planning.
    An example: St. Louis sits at the junction of the Missouri, 
Mississippi and Illinois rivers, and those living in the area, 
as we have seen on television day after day, rely on levees for 
their protection. They campaign for increases in the size of 
their existing levees. Without a comprehensive plan to guide 
its action, the Corps is forced to look at each levee project 
in isolation and cannot judge what the cumulative impact on 
people and the environment will be from new levees.
    In 2004, a Senate Committee resolution authorized a 
comprehensive watershed study of this critical area, yet no 
funds have been provided to date to carry out this important 
effort, and none are in the budget for 2009. Planning has no 
priority.
    To get watershed/basin level planning off the ground, there 
must be better collaboration among Federal agencies and the 
States within the basins. There must be better collaboration 
among congressional Committees authorizing and funding water 
programs. Committee reports should require watershed planning 
as a basis for project approval.
    The administration, the Congress and the States must 
develop an approach for management of activities within the 
watershed and decide who is going to be in charge. Is one 
Federal agency going to be the lead systems integrator for 
Federal activities? Is it top-down, or is it bottoms-up?
    Texas is a great example for much of us in their bottoms-up 
planning. Where does bottoms-up and top-down meet, and how can 
we make that work?
    While the United States has put watershed planning on the 
back burner, other nations have not. The European Union finds, 
and I quote, "The best model for a single system of water 
management is management by river basin," unquote. Initiatives 
for the Maas, the Schelde or the Rhine river basins, very large 
basins, have served as positive examples of this approach.
    Australia also has a long problem with water, and they have 
been dealing with this in many parts of its country over the 
last decades, through watershed, what they call catchment 
management, to ensure that the waters are used effectively and 
that decision-makers consider the balance among the multiple 
uses of this resource.
    Like the European nations, Australia has found that the 
integration that is achieved through catchment management has 
reduced conflicts over water, improved the efficiency of the 
use of the resource, and more fully involved the stakeholders, 
an important factor.
    Watershed planning eliminates long-term problems. We have 
technologies and tools, finally, such as shared-vision planning 
and the models that Brian Richter has just mentioned, that make 
this possible.
    I would urge the Congress to carefully examine the projects 
it authorizes to ensure that these projects, as they authorize 
them, are set within a watershed context, and that the 
authorization and eventual funding by the Congress of 
individual projects is not creating watershed problems. Now is 
certainly the time for you to demand watershed planning and 
management.
    Thank you very much for your attention.
    Mr. Carnahan. Thank you very much, Dr. Galloway. I 
especially appreciate your reference to St. Louis.
    And let's go on now to Mr. Freedman.
    Mr. Freedman. Good afternoon, Mr. Chairman and Members of 
the Subcommittee. My name is Paul Freedman. I am vice president 
of the Water Environment Federation and president of Limnotech, 
an environmental consulting firm I founded over 30 years ago. I 
have been involved in hundreds of water and watershed 
management projects coast to coast, and have chaired five 
national conferences on watershed management.
    My written testimony highlights why the watershed 
management approach is the only logical and effective approach 
to solve today's large-scale and complex water resource 
challenges. In my statement, I offered several elements of 
success, including coordination among Federal programs, large-
scale water planning, integrating both land use and water 
planning, the need for comprehensive data and modeling, and 
multi-stakeholder involvement.
    But as I sat to write my oral presentation and keep it 
within the 5 minutes, I realized some irony. Twelve years ago 
this month, I co-chaired one of the earliest and largest 
watershed conferences to ever occur. WEF organized it jointly 
with 15 Federal agencies. Well over 1,000 experts participated, 
and more than 5,000 participated through video conference. 
Hundreds of papers were delivered, and a lot of excitement was 
generated, illustrated by this fat proceedings book.
    At the time, it was kind of this "a-ha" moment, you know. 
We had made enormous progress since the Clean Water Act of 
1972, but further progress toward restoring the physical, 
chemical and biologic health of our water resources and 
protecting public health and well-being was stalled. Everyone 
agreed there: Watershed management was the only answer to take 
us into the 21st century. It was viewed as the new paradigm.
    Yet here we sit, 12 years later, and those 15 Federal 
agencies, despite good intentions, have largely fallen back 
into siloed, programmatic approaches, focusing on 
administrative and legislative mandates and not necessarily 
maximizing the environmental outcomes to the public welfare. 
Unfortunately today, the same problems exist that we had in the 
1990s, compounded by concerns about water scarcity and climate 
change.
    Yet, in the face of this, we are back focusing on specific 
programs rather than holistic solutions. We have limited agency 
cooperation, though very well-intentioned people. And we have 
many good examples. You have heard many from the panelists here 
today, but most are kind of isolated and have limited success, 
because widescale and integrated implementation of the 
watershed approach seems to be limited by programmatic 
constraints. The missing piece is a compelling articulation of 
the goal. Congress needs to articulate the watershed approach 
as our national policy toward water resources.
    I often say that today's problems are dramatically 
different in scale and in nature than those of the 1970s. One 
example, the Clean Water Act, was passed when the environmental 
drivers were point-sourced wastewater pollution. Today the 
drivers are nonpoint sources, land use, ecosystem restoration, 
water scarcity, flooding, invasive species, endocrine 
disruptors, climate change, et cetera. The list goes on. And 
trying to solve these problems with the 1972 Clean Water Act is 
like trying to use a 1972 auto repair manual to repair a 2008 
electric hybrid; it just doesn't work. So it is with other 
independent and dated Federal programs that don't reflect the 
large scale and complexity of the problems we are dealing with 
today.
    So I applaud this Subcommittee for examining how we could 
undertake comprehensive watershed planning and management. I 
encourage you to consider bold action to change the course of 
our water resource programs. We need to move toward a holistic 
watershed framework that integrates what are now competing 
water resource concerns, scrambling for attention of Federal 
agencies and dollars, that often work in isolation and even, at 
times, cross purpose.
    I thank you very much for this opportunity to speak before 
your Committee today. And WEF would certainly be happy to work 
with you on this important challenge.
    Thank you, again, for the time.
    Mr. Carnahan. Thank you very much.
    Finally, let's turn to William Mullican with the Texas 
Water Development Board.
    Mr. Mullican. Thank you, Mr. Chairman, Members of the 
Committee. For the record, my name Bill Mullican. I am deputy 
executive administrator for water science and conservation at 
the Texas Water Development Board.
    I would like to again echo my appreciation for this 
Subcommittee, for your diligence to focusing on water resource 
issues, not only for the Nation, but also for many issues that 
have been of particular importance to the State of Texas.
    I would like to, rather than repeat many of my co-
panelists' remarks, just simply state that I echo the issues 
that they have raised with respect to the absolute importance 
and criticality of moving forward with a comprehensive 
watershed management and planning approach for the nation.
    The value of water, as far as it relates to our economy, 
our environment and our public health, simply cannot be 
quantified. We can no longer afford the inefficiencies or the 
ineffectiveness of project-specific, project-driven, silo-
driven, mission-driven watershed planning where we often and 
almost always fail to realize opportunities that exist within a 
watershed for other efficiencies of scale.
    What I would really like to do today is just focus on a 
couple of things: what I believe watershed planning for the 
21st century really must entail; a bit about the Texas 
experience and Texas's experience with respect to the Federal 
activities on watershed planning; and then, finally, a 
recommendation.
    First, our working definition. And this is just my working 
definition of watershed planning. Comprehensive watershed 
planning is sort of a sequential process. It seems to me that, 
most often, while we might do one piece or another piece of 
this process, we always seem to forget to carry it through to 
fruition. I believe that we have to evaluate and gain an 
understanding of the physical, chemical, biological and 
economic characteristics of our watersheds. I believe we have 
to integrate those characteristics of the watersheds.
    I think we then need to move to the next level, whereas we 
explore the opportunities and challenges that we face in those 
watersheds, especially as it relates to changing conditions, 
whether it be the implementation of a new water supply project, 
the implementation of an environmental restoration project, or 
even something so broadly applicable as the climate variability 
that undoubtedly is going to be affecting our watersheds.
    We then have to identify all potentially feasible water 
management strategies, projects, management objectives, 
everything that might be identified in order to facilitate the 
compilation of an effective watershed plan. And then, through a 
stakeholder-driven process, we must compile those 
recommendations into a plan that can then be implemented.
    Often, though, this is where, even if in an ideal world 
this is where we are at the end, the reality of it is, is that 
if you don't put in place a process to monitor implementation 
of that plan and also put in place a process that allows to 
systematically review and revise that plan based on changed 
conditions, then the reality is that plan will quickly become 
shelf art and of little value.
    As far as the Texas experience is concerned, as Madam Chair 
was just describing, we have suffered through some very 
significant droughts. We basically expect drought and are very 
happy when it rains. And right now we are in the early stages 
of what appears to be another significant drought.
    In the 2007 State water plan, there were a number of 
findings. For example, we now know that our population 
projections will increase from 23 million people today to 46 
million people by 2060. Our current water supplies are on the 
order of about 17.9 million acre feet per year. We project that 
that will decline, due to the mining of aquifers and 
sedimentation in our reservoirs, down to 14.5 million acre feet 
per year. We understand, though, that our demands for that 
water supply will increase from about 18.1 million acre feet 
today to a little over 21 million acre feet per year by 2060.
    The result is, if we do nothing right now today, for the 
first time in our 50-year history of water planning, we will be 
in the red by about 3.8 million acre feet in 2010, and that 
number will increase to almost 9 million acre feet per year by 
2060. The bottom line is, this planning process, which is 
basically a watershed planning process, for water supply has 
resulted in an understanding in the State of Texas of the 
crisis that we face if we do not do anything.
    But the reality of it is that that watershed planning 
approach for water supply was just that; it was only water 
supply planning. While we did try to take into consideration 
water quality and land use and environmental issues, the 
reality of it is that the focus on water supply planning did 
not really do the kind of job that we felt like needed to 
happen in those other areas.
    So, in the last legislative session in 2007, the Texas 
legislature passed Senate Bill 3, which, in part, contained a 
new watershed effort to look at environmental flows. In other 
words, what this will do is it has created a similar 
stakeholder-led process on a watershed-by-watershed basis where 
recommendations will be developed for how much water needs to 
be in our streams and rivers and freshwater inflows into our 
bays and estuaries in order to maintain a healthy ecosystem. 
That parallel watershed approach to environmental issues will 
then be integrated into our water supply planning process so 
that it will then ultimately become a comprehensive effort.
    We are not there. We have a lot of work to do. But what we 
have realized is that doing nothing is no longer an option. We 
are very concerned about the impacts of drought. And, in fact, 
in the last legislative session, the Texas legislature 
appropriated $750 million just for this 2-year biennium to 
implement water supply projects so that we will be prepared 
when the next drought hits.
    As far as our involvement with the Federal agencies on 
watershed planning, I echo the remarks of my co-panelists in 
that the reality of it is it is a very fragmented approach and 
it has many inefficiencies built into it that we simply can no 
longer afford as a Nation or as local sponsors working with the 
Federal Government.
    And our recommendation to you today, which is somewhat more 
repetitive of my remarks back in November when you were 
considering H.R. 135, is simply this: We would ask that you 
convene a national forum such that you can pull together all 
the Federal agencies, the States, regional authorities and 
NGOs, and have a discussion about what is the appropriate role 
for the Federal Government and all the agencies in the 
watershed planning and management activities to ensure that we 
can gain the kind of efficiencies and effectiveness that are 
going to be needed if we are going to meet the demands of our 
Nation as we move forward in protecting our watersheds.
    Thank you. And I will be happy to answer any questions you 
may have.
    Mr. Carnahan. Thank you all very much.
    I am going to start off with a couple of questions before 
we go to the other Members.
    But let me start with Mr. Mullican and Mr. Richter. I 
wanted to ask these questions of you.
    Texas, as you indicated, has recently completed your State-
wide watershed planning exercise. Do you think that kind of 
exercise--has that been done around the country? Is that 
something that could be used as a model for other States?
    And to Mr. Richter, the computer-based system that was used 
with the Corps in the Delaware River Basin, is that something 
that could be useful in other watersheds around the country?
    And we will start with Mr. Mullican.
    Mr. Mullican. Yes, sir. In fact, we have worked, Texas has 
worked with a number of States in the United States, in fact, I 
personally have worked with about 14 States, in helping them to 
understand the Texas model for regional water planning. Many of 
those States are in various different stages of implementing 
their own version of the Texas model.
    Now, I think it is important to note, just as it is in 
Texas, with average rainfall of 6 inches in the west and 60 
inches in the east, there is no one-size-that-fits-all, and it 
is on a State-by-State basis. There are pieces of our approach 
that are obviously, though, transferrable and have, in fact, 
been transferred. For example, in Pennsylvania, they have a 
very similar water supply planning process in action right now 
in Pennsylvania.
    I think the most important component of it, though, is the 
realization that it has to be a stakeholder-led process. In 
Texas, we defined 11 different interests by law that have to be 
involved in each one of these regional planning groups. And if 
you don't have the right interests at the table, then whatever 
decisions come out of that process are not going to be agreed 
to by the greater community.
    The second thing is, is there is an almost overnight 
realization that we had when we started down this path of the 
need for good data and good science. And as a result of that, 
the State has invested about $50 million over the last decade 
in the development of water data, of water science, and 
bringing together the facilitation that is needed to understand 
that analysis.
    So we have transferred this information to other States. 
And I know that there are a number of States, from California 
to Pennsylvania and Georgia, that are looking for, for example, 
looking at the implementation of something similar to the Texas 
model.
    Mr. Carnahan. Thank you.
    Mr. Richter?
    Mr. Richter. Yes, thank you, Mr. Chairman.
    I want to start by emphasizing that, although we are quite 
happy with the particular model that we are developing in the 
upper Delaware, I want to caution against any conversation 
about which model is the best one to use for these purposes.
    And, in fact, one of the maladies that all of these 
panelists are sharing with you today is, oftentimes, because of 
the competition among different models or different impressions 
about what is the best model--it is "my model is better than 
your model"--can be one of the dysfunctions that results in us 
not being able to move forward with comprehensive watershed 
planning.
    So I think the key issue is really rather that somebody 
needs to have clear directive and authority for leading the 
watershed planning process; that there is no clear directive. 
You have heard from the panelists--Dr. Galloway said whether it 
comes from the bottom-up or the top-down doesn't really matter. 
Ms. Collier, from the Delaware River Basin Commission, is a 
tremendous example, a terrific example of an organization that 
was provided with clear authority and clear directive and 
funding capabilities to enable them to do the kind of 
comprehensive watershed planning that I think we are all 
seeking here.
    So I really want to focus the issue on providing some 
authority and enabling some leadership, as opposed to 
technology and the tools. The technology and the tools are very 
sophisticated, very well-advanced. And that really isn't what 
is limiting our potential here.
    Mr. Carnahan. Thank you. And for Mr. Stockton, some have 
been critical of the watershed planning process for focusing on 
isolated water resource issues that are lead by single State or 
Federal agencies without enough outside input. Can you identify 
for us some steps you think the Corps either has taken or can 
take to ensure that watershed plan is more comprehensive and 
has sufficient public input along the way.
    Mr. Stockton. Thank you, Mr. Chairman. Yes, we have 
recently issued, actually about 3 years ago, we issued an 
engineering regulation, called Planning in a Collaborative 
Environment, trying to really focus more on broadening our 
scope, broadening the involvement of other folks in that 
process. We are also currently in the process of revising the 
Corps of Engineers principals and guidelines for how we 
formulate and plan projects. And we would like to see the whole 
comprehensive water resource planning component of that as it 
goes through the process.
    I think one of our limitations that has been addressed here 
is that we are a project-funded organization. We don't have 
walking around money to collaborate unless we get specific 
funding for doing a watershed study. It is just the way we get 
our appropriation and funding typically drives our ability to 
look at a broader range of problems that is within a watershed 
and to solicit through cost-sharing sponsors necessary to 
partner with us. I think that is probably the biggest 
limitation.
    Mr. Carnahan. Thank you very much. Next I want to turn to 
Mr. Boozman from Arkansas.
    Mr. Boozman. Thank you, Mr. Chairman. Mr. Stockton, what do 
you see as the advantages and disadvantages of the Corps' 
existing planning authority found in section 729 of WRDA 1986? 
So right now we have current legislation in place. What are the 
pros and cons of the legislation as far as you can see?
    Mr. Stockton. I think it is a great piece of legislation. 
It allows us to do comprehensive watershed planning. The 
difficulties are as you look at larger geographic areas, 
watersheds, is to solicit the interest of a stakeholder, 
sponsor, to come up with that 25 percent non-Federal share, to 
look at that broader range of project issues within the 
watershed.
    So I think that is probably the biggest limitation. It is 
not so much on the authority side. I think we have all the 
authorities we need to do comprehensive watershed planning. The 
hard part is to develop the partnerships and the sponsorship to 
participate financially.
    Mr. Boozman. Mr. Larson, in a similar vein, what you do see 
as the appropriate division of responsibilities between state, 
local governments and the Federal Government in carrying out 
comprehensive watershed planning?
    Mr. Larson. Again, I think all of us would probably talk 
commonly saying there is a role for every level, but the bottom 
up approach starting at the watershed level, with the local 
units of governments, with the States playing a coordinating 
role and an integrating role, and the Federal Government 
playing a facilitation and a technical assistance role that Mr. 
Stockton has talked about, that we have all talked about.
    Everyone has that role, but we have gone too many years 
with this top down approach that needs to be inverted if we are 
really going to end up with an approach that works.
    Again going toward what we have all talked about as saying 
that any specific plan must fit within the context of a total 
watershed plan.
    Mr. Boozman. Mr. Stockton mentioned that one of the 
obstacles was the Corps could step in and help with the big 
approach, but trying to find the political will of the local 
entities, sometimes communities, counties, the State, sometimes 
interstates to come up with the 25 percent match. What do you 
see as the biggest obstacle? Do you see that also as a--
    Mr. Larson. Well, to me it is an obstacle because we have 
let it become an obstacle. The first thing we need to do is 
disabuse governors, local community officials and our citizens 
of the notion that the Federal Government is going to solve 
this problem, because they are not. There isn't enough money in 
the Federal Government to solve this problem. There isn't the 
ability overall, or the authority overall to make it happen. 
But they believe that the Federal Government will. And as long 
as they do that, making it a priority at the local level to put 
resources into solving these problems isn't going to happen. 
Our programs right now, our Federal programs don't incentivize 
those communities and citizens to take the leadership in this 
activity or the States.
    So until we set up a structure through our Federal programs 
that say to them if you do, those communities and States that 
do these things and do them right, you are going to get the 
Federal technical assistance that will help you through the 
process to get these implemented, it is not going to change. I 
don't believe it is going to change.
    Mr. Boozman. Thank you.
    Dr. Galloway, we have heard a lot of discussion on the need 
for the comprehensive watershed planning obviously, most of it 
is done at the Federal level done by the Corps. What do you 
think that the agency or that the Corps ought to be doing with 
regard to the planning process? In other words, where do you 
see their function being?
    Mr. Galloway. The Corps, certainly in many of the studies, 
has to be the lead for dealing with watershed or a basin plan. 
But in other cases, I think the Corps has to be in a position 
to support others in a basin, for example where water quality 
is a preeminent issue.
    In larger basins, you can take the Missouri Basin, or the 
Mississippi, if you really want to go large, and you recognize 
you will need an agency that has work in all of those States, 
all the States of the Basin, and recognizes the immensity of 
the operation. But it can't be just the Corps of Engineers, it 
has to be collaborative among the agencies.
    And I really believe that this idea of the Federal agency 
being the lead integrator of the Federal approach can vary from 
location to location as to who is in charge and what the States 
roles can be. So you are very familiar with the challenges of 
trying to get the States in the Missouri Basin to agree on 
anything. You do need some sort of Federal leadership in that 
regard just as Ms. Collier has done in the Delaware Basin. But 
again, I think it is case by case, where the amount of 
involvement and the roles can differ.
    Mr. Boozman. I agree. In our case with Missouri and then 
the Oklahoma situation that we have, you bring the EPA and 
other agencies and the politics of it gets very difficult. So 
we appreciate you all being here. And I will go ahead and defer 
to the next round, Mr. Chairman.
    Mr. Carnahan. Next, I want to yield to the gentleman from 
New York.
    Mr. Bishop. Thank you, Mr. Chairman. As I indicated in my 
opening statement, I am interested in the issue of how to 
resolve or overcome a situation in which different agencies, 
particularly different Federal agencies approach the solving of 
a problem from different perspectives. And let me be specific, 
we have this Fire Island and Montauk Point reformulation study 
in my district, it is actually a very important study that will 
govern how we protect 83 miles of shoreline and the associated 
watershed area. The Army Corps is approaching this issue 
consistent with the goal of national economic development. So 
that is to say that they are focusing on shoreline protection 
and on storm damage mitigation.
    The Department of the Interior is approaching this from the 
perspective of national ecosystem restoration. So they are 
focusing on restoration of natural habitat and on maintenance 
of the natural processes in terms of shoreline protection. And 
these areas don't have to be mutually exclusive, but there is a 
very strong propensity for them to be viewed as mutually 
exclusive.
    And so, Mr. Stockton, I am going to ask you to comment on 
this first, and perhaps Mr. Richter, if you could comment on 
this. I am very interested in how these differing perspectives 
can be reconciled. So I would appreciate your comments on that.
    Mr. Stockton. The rules by which we formulate projects and 
plan them are based upon Principles and Guidelines from 1983. 
We are currently in the process of revising those. The current 
Principles and Guidelines really focus on the National Economic 
Development plan. Those are kind of rules that drive us. And a 
lot of that is policy. Actually the existing rules actually do 
give us flexibility to look at an environmental quality 
account, social effects, regional economic benefits, but 
because of the budgetary limitations we, through policy, focus 
primarily just on the national economic development.
    As we are working through our revisions to the Principles 
and Guidelines, we are hoping to elevate the environmental 
quality account up to a coequal status, if you will, with the 
national economic development account. So it will be easier for 
us to do the tradeoffs, recognizing that all of these projects 
serve multiple purposes and they don't have to be mutually 
exclusive. So I think we are looking at our policies, trying to 
improve those and I think we can work through that. So I think 
there is hope, but right now the focus is on national economic 
development.
    Mr. Bishop. Mr. Richter.
    Mr. Richter. Yes, it may seem like I am oversimplifying, 
but I think, what we are seeing around the world is when we 
create the forum for dialogue between different agencies, 
different stakeholders, different interests to come together 
and bring their expertise and their information and their 
different values in a context where they can learn from each 
other, then some very, very positive things can happen.
    The question is what kind of a catalyst do we need to 
provide in order for that type of forum to emerge? And again, I 
don't think that there is any one particular governance 
framework that is going to fit for all these situations, but we 
do have a lot of good examples across the United States and 
around the world where that type of forum has emerged because 
there was somebody who took the leadership to direct that the 
planning activity take place, and then there was funding 
support to enable it to happen.
    So in Texas they passed Senate bill 1, the State 
legislature provided funding to enable them to do watershed 
planning to talk about water supply and allocation and sharing 
the water in the major river basins across the State.
    Again, in the case of Delaware River Basin Commission, 
again, the same initiative, the same leadership to create that 
Commission, to create that forum where those different 
interests and ideas and values can come together along with the 
funding source. So if we could find the right chemistry, and in 
your situation there in New York, there probably are a couple 
of different governance models to look at, but what is 
necessary is for somebody to create the context and find the 
funding to enable it, to catalyze it.
    Mr. Bishop. Thank you very much. Mr. Chairman, I yield back 
thank you.
    Mr. Carnahan. Next we will go to Ms. Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chairman, and Mr. Stockton 
and mostly to Mr. Galloway. Mr. Stockton, from what I am 
hearing is they want a leadership, or least the recommendation 
is for the Bureau to be the leader, but to have a specific 
plan. Does your 83 principals and guidelines, the new 
provisions that you are going to hopefully go and institute it 
would include being able to carry out a plan that maybe then 
set up to establish that leadership necessary to be able to 
carry out what these panelists are talking about. And that 
would then include not only the leadership, but the funding 
request to Congress to be able then to carry out those things, 
and not just leave them in limbo, because some of those 
entities may not of themselves be able to afford to set them up 
by themselves.
    Mr. Stockton. Yes, ma'am. I think we would like to see the 
watershed approach embedded within our revised Principles and 
Guidelines. We are currently going through interagency 
coordination with that now, but it is really one of the key 
parts that we would like to see in the process and procedures 
by which we put together plans. We have very strong 
collaborative working relationships with other Federal 
agencies, with the States, with local and Federal sponsors. And 
we really do want to have a collaborative bottoms up approach, 
where we can perform a facilitative role to provide that 
leadership, to bring folks together, with the technical tools, 
the models so they can see what the trade offs are to look at 
alternative plans. We do see a role for us. But it does require 
appropriations.
    Mrs. Napolitano. You are prepared to implement them into 
your new plan?
    Mr. Stockton. If funds are appropriated, yes, we would 
include them in our planning process.
    Mrs. Napolitano. In setting forth the roles, the modeling 
that you would say, would you use those that have been 
successful? And to what extent would people be able to have 
their own, because it is not a one-size-fits-all.
    Mr. Stockton. Absolutely not, no. Every model you put 
together, it has the technical background to it, but as people 
go through these shared vision planning, they identify what the 
goals and objectives are in the watershed and then you have the 
technical tools behind that to look at the trade offs of 
different alternative plans. And so people are very involved in 
it.
    Mrs. Napolitano. Does any of this look for the ability to 
be able to capture some of that watershed to run off into 
aquifers in the identification through USGS of those aquifers?
    Mr. Stockton. Typically our primary mission areas are flood 
damage reduction, navigation and aquatic ecosystem restoration. 
So we typically don't look too hard at that. I think as we move 
into more integrated water resource management comprehensive 
planning, we would want to look at those other alternatives.
    Mrs. Napolitano. Well, I certainly hope you do, because 
given the fact that we have climate warming and a lot of that 
runoff is going to waste sort of kind of, we need to understand 
that we need to begin to look at more storage, and above ground 
will be evaporated more quickly. USGS does only one aquifer 
study a year. I think we need to speed that up. So possibly 
working with USGS, and maybe having some joint working 
relationship about prioritizing areas that are heavily in need 
of the work and being able to bring all the other agencies to 
fore to assist in the projects.
    Mr. Stockton. Yes, ma'am.
    Mrs. Napolitano. Does that make sense?
    Mr. Galloway. When we did the 1994 study after the 1993 
Mississippi flood, we determined a lot of agencies as you have 
just described, would love to come to participate in 
collaborative planning, but they have no money. There needs to 
be, and we recommended provisions be made in the authorizations 
and appropriations for these different agencies, USGS, 
Department of the Interior, Fish and Wildlife, et cetera, to 
have funds to cooperate with the Corps of Engineers and not 
have to come to the Corps of Engineers for every nickel that 
they needed to do work.
    And again, in spite of the fact that you would really like 
to work, if you don't have the money it is awfully hard to come 
to the party. And I think that's what we hope you could 
encourage in the appropriations for these agencies support for 
the comprehensive planing of the Corps.
    Mrs. Napolitano. And going back to Mr. Stockton, I am 
assuming that most Federal agencies do have the adequate 
authority or funding to do the comprehensive watershed planning 
or is new authority needed to make Federal agencies better 
partners?
    Mr. Stockton. I think we have the authority to do that.
    Mrs. Napolitano. Well, explain.
    Mr. Stockton. Well, it depends on each specific study 
authorization that we are provided.
    Mrs. Napolitano. Okay, okay.
    Mr. Stockton. It tells us what the focus of that study is, 
whether it is navigation, flood , etc. Typically water supply 
is outside of our mission areas, so you get into storage, those 
kinds of things. It is really one of our silos that belongs to 
another agency or to the States. We only do it for multi 
purpose projects when it is ancillary to one of those 
specifically authorized purposes.
    So yes, we would like to do it for watershed studies and, 
depending upon how they are authorized, we can do it. It is 
just that you need the appropriations necessary to actually 
engage the other Federal agencies, the State agencies, and the 
NGOs to bring them together.
    Mrs. Napolitano. Well, it made sense to do an overall 
approach, instead of just a single agency focusing on one thing 
without considering the rest. Thank you, Mr. Chair.
    Mr. Carnahan. Next, I want to recognize Mr. Hall of New 
York.
    Mr. Hall. Thank you, Mr. Chairman. In my district, which is 
part of the Delaware River Basin watershed and home to a number 
of other waters, watershed management is a serious concern. We 
have had several major flooding events in the last few years. 
Three 50-year floods in the last 5 years to be exact. As I 
watch the news as the crest moves down the Mississippi River, I 
think we are all thinking about the old ways of managing 
watersheds versus the new ones that we may be moving toward.
    Homeowners and local farmers are holding their breath 
alike, both in my district, the 19th district of New York which 
has the Hudson Valley, the Delaware Valley, the Minisink, the 
Wallkill, the 10 mile river, all of which, with the exception 
of the Hudson, has an amazing capacity, but all tributaries in 
Delaware and its tributaries have flooded numerous times in 
recent years.
    So I am happy to see that both a number of you, if not all, 
are calling for an integrated holistic approach to watershed 
management. If management was fully integrated where would 
flood prevention fall as a priority? And what actions could be 
taken to combine for flood prevention with other goals? I guess 
I would start by asking Mr. Stockton.
    Mr. Stockton. Clearly, water is one of those resources that 
has multiple uses and purposes in how you manage it. And I 
think the Delaware River Basin Commission is a perfect example 
of how you actually take all those competing interests, those 
needs for flood risk reduction, for water supply, for instream 
flows for environmental purposes and how you would strike those 
different balances. I would hope that public safety and 
protecting people's lives and properties would rank very high.
    But it is all a question of tradeoffs and how you accept 
less risk in one area and perhaps you accept more risk in 
another one of those areas. So it really is part of the 
process.
    Mr. Hall. Ms. Collier, would you like to weigh in?
    Ms. Collier. Yes, sir, thank you. After those three floods, 
the four governors of the Basin came to DRBC and charged us 
with putting together an interstate flood mitigation task force 
to look at it holistically, knowing when they stood on one 
shore of the river, they could not solve the flooding problem. 
Two aspects came out of that, one, we had a quite diverse task 
force with Federal members, State members, nonprofits, et 
cetera came up with 45 recommendations, and then the four 
governors prioritized those, and we are working with the 
Federal agencies and the States to actually implement those 
priorities. One of which is looking across State boundaries on 
how DRBC might be able to use our authorities to have an 
umbrella water--excuse me, floodplain protection so that it is 
uniform on both sides of the river.
    The other is, as you know, there is a strong cry for voids 
in the New York City reservoirs to catch some of that flood 
water. The governors provided us $500,000 and we received 
proposals from both Corps of Engineers and USGS to develop a 
model on how you can use the reservoirs of the Basin better for 
flood mitigation. Well, both those proposals were good. It goes 
back to the issue of what models best. We asked USGS and the 
Corps to get together in the same room and also include 
National Weather Service and see if they could come up with a 
proposal that used the best of the three agencies and they did. 
And I think we have a much better product because of it and we 
are also able to significantly able to leverage the dollars. We 
will have had a model this fall and then we will have really 
good science basis to evaluate how best we should use the 
reservoirs.
    Mr. Hall. Thank you, I have another fewer than 40 seconds 
left, so let me jump to Mr. Richter and ask in the Hudson 
Valley there are a number of environmental organizations and 
conservation groups that are looking at acquiring what they 
think will become the floodplain should ocean levels rise with 
climate change and the Hudson River, of course, is tidal all 
the way to Troy, so well past my district. The high tide will 
be considerably higher than it is now. Are you aware of or 
taking part in any similar----
    Mr. Richter. Yes, and it is a very important example of how 
we can be proactive in our thinking about how we as a society 
are going to adapt to future climate change. Well, climate 
change is actually in front of us even today. And it falls in 
the category of there are of natures services or what a lot of 
the scientists are calling ecosystem services. So to 
recognize--the thing of a comprehensive watershed planning 
approach can enable us to do is to identify where there are 
areas in the watershed that need to be protected or reserved to 
provide the natural function of the storing flood waters.
    Where are the parts of the watershed that need to be 
protected so that they can naturally recharge groundwater 
aquifers. In some cases, we have to undo some of the 
development that may have been done previously in order to 
regain some of those services, but that is very much along the 
lines of this comprehensive watershed planning that we have 
been talking about today is being able to recognize what are 
the healthy, natural functions of watersheds and trying to work 
with those to the greatest extent possible.
    Mr. Hall. And if I may ask one more question, Mr. Chairman, 
of Dr. Galloway, perhaps as some of other witnesses have 
noticed watersheds don't respect human boundaries and they do 
cross over State lines as Mr. Richter said, we may have to find 
a balance between undoing some of the development that is 
already done to get rid of impervious surfaces and restore 
recharge areas and retention areas, grasslands, wetlands, 
forest lands that may have disappeared. Parts of my district, 
that would be impossible. Some parts are Orange County, in 
particular, has mostly undeveloped land area and has a lot of 
options open to them. And I am happy to say that the local and 
county governments are taking a very proactive and highly 
forward looking approach to this. And they have an opportunity 
to do things right. So the question is, is there a middle 
ground that could be effectively reached between the old way of 
flood control and the new?
    Mr. Galloway. Most certainly. I am a 20-year resident of 
Orange County, so I appreciate what you are talking about and 
the challenges you face. There has been development, some of it 
was wise, some of it was not wise. And I think you have to 
examine each and every case, but more important than thing else 
is to recognize the new paradigm and from now on, not move 
against the direction you want to go, not allow things to be 
built where you already recognize that if they are built, they 
are going to be problems for you. And I think that again, in 
New York State, there is such development in the lower part of 
the State that is going to be difficult to move everything out 
of the way of the rivers. Capture what you can and certainly as 
you go north in Orange County north, there are opportunities 
that are certainly available.
    Mr. Hall. Thank you very much, I yield back. Thank you, Mr. 
Chairman.
    Mr. Carnahan. Thank you. We don't have any new questions, 
but I want to wrap up based on some of the testimony that we 
have heard here today. And in particular getting back to the 
structure of the Corps in terms of the project driven 
appropriations process, in terms of the cost share requirements 
for planning, the sort of lack of incentives involved in that 
process.
    I guess my question to really any of the panel, but I want 
to start with Mr. Stockton, how do we break out of that 
structure? I would like to hear recommendations on how we can 
get from where we are to more comprehensive planning, more 
collaboration between Federal agencies and there and are there 
some State models out there that we should be looking at. Mr. 
Stockton, we will start with you.
    Mr. Stockton. First of all going back to what Dr. Galloway 
said, we as a Nation back in the last century, really, did some 
innovative work in the Tennessee Valley and the Columbia River 
Basin and Missouri River Basin, and I think we cannot forget 
that. So we have a history of doing this, we just kind of 
forgot about doing it recently. And I think if I had to make 
one recommendation, it would be we need to incentivize the 
States in helping them do their watershed planning. I mean, 
Texas is very, very sophisticated. They are kind of our gold 
standard, Texas, California, Pennsylvania. There are really a 
number of States out there that have really done an incredible 
job. And so I think it is not anything new, but I think we do 
need to find ways to incentivize watershed planning on a 
comprehensive basis and to use that as a criteria for making 
Federal investments within a watershed as we go through our 
planning process for specific projects. I think we need to find 
ways to incentivize that.
    Mr. Carnahan. Let me ask you to further elaborate. Can you 
give us examples of ways to provide those incentives that you 
think would work?
    Mr. Stockton. Well, as we go through our planning process 
and our budgetary process, I think we could set budgetary 
priorities based upon if you had well-defined criteria for the 
type of watershed plans that need to be done and it would need 
to be defined, because there are a lot of different definitions 
out there of what it is. But for those States and watershed 
entities that had actually gone through the process, had an 
approved plan, they would get priority both within the planning 
process and the budgetary process for how we allocate those 
scarce Federal dollars and make those Federal investments as a 
way to incentivize good behavior.
    Mr. Carnahan. Thank you. And I want to open it up to others 
on the panel. Mr. Freedman.
    Mr. Freedman. Yeah, I want to comment on that with kind of 
a general statement, the kind of advice I gave my children 
about life and that is that a vision without a plan is just 
fantasy and a plan without a vision is just activity. And so we 
need kind of both. We need to start at the stakeholder level 
and through a multi stakeholder process, we need to develop 
this collective vision. And then we need a framework to 
implement a plan that is matched to the vision. Otherwise we 
can't get where we are going. And that plan you know we have 
talked about top down or bottom up, it really starts at both 
ends and kind of meets in the middle. The bottom part of it is 
the stakeholders, the local people, the local citizens. You 
have to identify what their issues and what their priorities 
and concerns are, whether it be groundwater or flooding or 
water quality or ecological protection. And then you need the 
strength and authority at the Federal level to integrate all 
the complex partners that you have in this. You know, you have 
Federal, State, municipal, tribal, you know, its quite complex. 
And the Federal framework needs to have the authority, needs to 
have funding and it needs to have some flexibility to make the 
right decisions. To focus on priority actions, not just 
programmatic activities, little check boxes where you, you 
know, you are meeting a particular act.
    And sometimes that may mean that you don't spend money in 
one area that seems to be the prescriptive approach of a 
Federal program, but you reprioritize it in another area. 
Because all too often we are spending money on things that 
aren't really making a difference in terms of the objectives. 
And rather, we need to--combining that vision and that plan 
focus on the things that gets you the biggest benefit towards 
your vision.
    Mr. Carnahan. Thank you. Any others?
    Mr. Mullican. Mr. Chairman----
    Mr. Carnahan. Let me go to Ms. Collier, she had her hand up 
first.
    Ms. Collier. Thank you very much. I just want to mention 
that when we did our resource plan in 2004, we had about 48 
different organizations represented at seven Federal agencies. 
We did this primarily within internal staff. I have a staff 
between 40 and 45, depending on how finances are, plus 
receiving a grant from a local philanthropic foundation to get 
a facilitator. But what is critical is there is an 
implementation phase afterwards. That is where having the 
Federal agencies as part of this plan is really critical. 
Because then we can sit down with them and carve out parts.
    You know, what is it that the Corps can pick up the ball 
and lead with this. In fact, we were lucky enough to be one of 
the partners with the Corps on the pilot watershed studies in 
2006. It was really based on priority needs identified in the 
plan. So it is financial incentives to do the plan, but then 
also as Mr. Stockton said have some carrot out there that if 
you do the plan according to key directions and priorities then 
you get a jump on the Federal agency funds.
    Mr. Carnahan. Mr. Mullican.
    Mr. Mullican. The Texas model also integrates into some 
incentives just as you asked about. And I thought I would just 
share with you our experience and the success that has had. In 
1997 when Senate bill 1 passed, there were these two provisions 
that really did not get a lot of attention. One was if you want 
to come to the State for a water route permit for a project, it 
has to be in the plan.
    Second one is if you want to come to the State for 
financing for a water supply project, it has to be in the plan. 
And nobody paid much attention to it until 5 years later when 
the first State water plan came out under those provisions. And 
then all of a sudden, we had cities coming to the State for 
financing for water right permits and they realized that they 
had not participated in the planning process, and therefore the 
project that they were wanting to get financing or permitting 
for was not in the plan.
    Well, why was that important? Because the plan was a 
comprehensive integrated plan that insured that there was not 
any overallocation of resources and that the decisions that 
were made or the strategies and projects had been vetted in a 
very public process.
    So now that we have gone through the second round of that 
planning process, we have matured tremendously and the process 
has matured such that now all the municipalities are very aware 
of this requirement so that they are very active in 
participating in the planning process. And so what we have now 
is a situation where, for example, in July next month, we will 
be having our second round of applications coming in for water 
supply projects in this planning process. We have about 
somewhere in the neighborhood of $350 million available to 
allocate for financing those projects. And we are already 
anticipating of eligible projects from this planning effort 
that we are going to get over a billion dollars of 
applications.
    So what happens then? Well as part of the law also since 
Senate bill 1 has passed, there have been additional 
provisions. For example, good water conservation plans, you 
have to have that as part of your application process. You can 
not come to the State for financing if you do not have a water 
conservation plan and are in the process of implementing that 
conservation plan. You have to have water loss audits, you have 
to submit those water loss audits in order to be able to get 
financing from the State.
    So we have put in place a series of, call them carrots, 
call them sticks or whatever you want to call them. But we have 
put in place a process that incentivizes participation in the 
stakeholder-driven process that is done in a holistic, 
comprehensive manner such that in the end of projects that 
participated in that are the ones that are getting the 
advantages of the financing and permitting to move those 
projects forward to implementation.
    Mr. Carnahan. Thank you again. Anybody else. Mr. Larson?
    Mr. Larson. What was described in Texas is also being used, 
for example, in California, their water resources projects and 
activities priorities are based on a check list. And the check 
list includes how many multiple objectives that particular 
activity is addressing. So if it is a single purpose activity, 
it is seldom going to get funded. FEMA does the same kind of 
things, for example, in its hazard mitigation projects that it 
funds under post disaster mitigation activities. Unless a 
community has a comprehensive community plan for hazard 
mitigation, it is not eligible for those kinds of funding. So 
these kinds of incentives, disincentives are critical. You can 
build in added incentives, for example, to say that activities 
must make sure that projects not adversely impacts other 
communities and other people now, but also in the future based 
on future conditions that we know are going to occur in terms 
of watershed development, in terms of climate change and those 
kinds of things. That goes for urban flood protection as well 
as water quality and quantity issues throughout the watershed. 
So all of those things are important to moving us in that 
direction.
    Mr. Carnahan. I thank all of you again. And on behalf of 
Chairwoman Johnson, I thank you for your time, your expertise 
that you share with us today. And the Subcommittee stands 
adjourned.
    [Whereupon, at 3:50 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T3277.006
    
    [GRAPHIC] [TIFF OMITTED] T3277.007
    
    [GRAPHIC] [TIFF OMITTED] T3277.008
    
    [GRAPHIC] [TIFF OMITTED] T3277.009
    
    [GRAPHIC] [TIFF OMITTED] T3277.010
    
    [GRAPHIC] [TIFF OMITTED] T3277.011
    
    [GRAPHIC] [TIFF OMITTED] T3277.012
    
    [GRAPHIC] [TIFF OMITTED] T3277.013
    
    [GRAPHIC] [TIFF OMITTED] T3277.014
    
    [GRAPHIC] [TIFF OMITTED] T3277.015
    
    [GRAPHIC] [TIFF OMITTED] T3277.016
    
    [GRAPHIC] [TIFF OMITTED] T3277.017
    
    [GRAPHIC] [TIFF OMITTED] T3277.018
    
    [GRAPHIC] [TIFF OMITTED] T3277.019
    
    [GRAPHIC] [TIFF OMITTED] T3277.020
    
    [GRAPHIC] [TIFF OMITTED] T3277.021
    
    [GRAPHIC] [TIFF OMITTED] T3277.022
    
    [GRAPHIC] [TIFF OMITTED] T3277.023
    
    [GRAPHIC] [TIFF OMITTED] T3277.024
    
    [GRAPHIC] [TIFF OMITTED] T3277.025
    
    [GRAPHIC] [TIFF OMITTED] T3277.026
    
    [GRAPHIC] [TIFF OMITTED] T3277.027
    
    [GRAPHIC] [TIFF OMITTED] T3277.028
    
    [GRAPHIC] [TIFF OMITTED] T3277.029
    
    [GRAPHIC] [TIFF OMITTED] T3277.030
    
    [GRAPHIC] [TIFF OMITTED] T3277.031
    
    [GRAPHIC] [TIFF OMITTED] T3277.032
    
    [GRAPHIC] [TIFF OMITTED] T3277.033
    
    [GRAPHIC] [TIFF OMITTED] T3277.034
    
    [GRAPHIC] [TIFF OMITTED] T3277.035
    
    [GRAPHIC] [TIFF OMITTED] T3277.036
    
    [GRAPHIC] [TIFF OMITTED] T3277.037
    
    [GRAPHIC] [TIFF OMITTED] T3277.038
    
    [GRAPHIC] [TIFF OMITTED] T3277.039
    
    [GRAPHIC] [TIFF OMITTED] T3277.040
    
    [GRAPHIC] [TIFF OMITTED] T3277.041
    
    [GRAPHIC] [TIFF OMITTED] T3277.042
    
    [GRAPHIC] [TIFF OMITTED] T3277.043
    
    [GRAPHIC] [TIFF OMITTED] T3277.044
    
    [GRAPHIC] [TIFF OMITTED] T3277.045
    
    [GRAPHIC] [TIFF OMITTED] T3277.046
    
    [GRAPHIC] [TIFF OMITTED] T3277.047
    
    [GRAPHIC] [TIFF OMITTED] T3277.048
    
    [GRAPHIC] [TIFF OMITTED] T3277.049
    
    [GRAPHIC] [TIFF OMITTED] T3277.050
    
    [GRAPHIC] [TIFF OMITTED] T3277.051
    
    [GRAPHIC] [TIFF OMITTED] T3277.052
    
    [GRAPHIC] [TIFF OMITTED] T3277.053
    
    [GRAPHIC] [TIFF OMITTED] T3277.054
    
    [GRAPHIC] [TIFF OMITTED] T3277.055
    
    [GRAPHIC] [TIFF OMITTED] T3277.056
    
    [GRAPHIC] [TIFF OMITTED] T3277.057
    
    [GRAPHIC] [TIFF OMITTED] T3277.058
    
    [GRAPHIC] [TIFF OMITTED] T3277.059
    
    [GRAPHIC] [TIFF OMITTED] T3277.060
    
    [GRAPHIC] [TIFF OMITTED] T3277.061
    
    [GRAPHIC] [TIFF OMITTED] T3277.062
    
    [GRAPHIC] [TIFF OMITTED] T3277.063
    
    [GRAPHIC] [TIFF OMITTED] T3277.064
    
    [GRAPHIC] [TIFF OMITTED] T3277.065
    
    [GRAPHIC] [TIFF OMITTED] T3277.066
    
    [GRAPHIC] [TIFF OMITTED] T3277.067
    
    [GRAPHIC] [TIFF OMITTED] T3277.068
    
    [GRAPHIC] [TIFF OMITTED] T3277.069
    
    [GRAPHIC] [TIFF OMITTED] T3277.070
    
    [GRAPHIC] [TIFF OMITTED] T3277.071
    
    [GRAPHIC] [TIFF OMITTED] T3277.072
    
    [GRAPHIC] [TIFF OMITTED] T3277.073
    
    [GRAPHIC] [TIFF OMITTED] T3277.074
    
    [GRAPHIC] [TIFF OMITTED] T3277.075
    
    [GRAPHIC] [TIFF OMITTED] T3277.076
    
    [GRAPHIC] [TIFF OMITTED] T3277.077
    
    [GRAPHIC] [TIFF OMITTED] T3277.078
    
    [GRAPHIC] [TIFF OMITTED] T3277.079
    
    [GRAPHIC] [TIFF OMITTED] T3277.080
    
    [GRAPHIC] [TIFF OMITTED] T3277.081
    
    [GRAPHIC] [TIFF OMITTED] T3277.082
    
    [GRAPHIC] [TIFF OMITTED] T3277.083
    
    [GRAPHIC] [TIFF OMITTED] T3277.084
    
    [GRAPHIC] [TIFF OMITTED] T3277.085
    
    [GRAPHIC] [TIFF OMITTED] T3277.086
    
    [GRAPHIC] [TIFF OMITTED] T3277.087
    
    [GRAPHIC] [TIFF OMITTED] T3277.088
    
    [GRAPHIC] [TIFF OMITTED] T3277.089
    
                                    

</pre></body></html>
